E-Mail Address: 775 H Street, N.E.

Est Joa briefs@wilsonepes.com Washington, D.C. 20002
WSO PIG Web Site: Tel (202) 789-0096
ewes www.wilsonepes.com Fax (202) 842-4896
No. 20-449

UNITED STATES DEPARTMENT OF HOMELAND SECURITY,
etal.,
Petitioners,
Vv.
STATE OF NEW YORK, et al.,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on December 9, 2020, the following counsel have expressly waived
service of paper copies by mail and have requested electronic service and that true and correct
electronic copies of the BRIEF IN OPPOSITION FOR RESPONDENTS MAKE THE ROAD NEW
YORK, AFRICAN SERVICES COMMITTEE, ASIAN AMERICAN FEDERATION, CATHOLIC
CHARITIES COMMUNITY SERVICES (ARCHDIOCESE OF NEW YORK), AND CATHOLIC
LEGAL IMMIGRATION NETWORK, INC. were served on the following counsel at the e-mail
addresses indicated:

JEFFREY B. WALL JUDITH N. VALE

Acting Solicitor General Senior Assistant Solicitor General

BENJAMIN W. SNYDER NY ATTORNEY GENERAL'S OFFICE

Assistant to the Solicitor General 28 Liberty Street

UNITED STATES DEPARTMENT OF JUSTICE New York, NY 10005

950 Pennsylvania Avenue, NW (212) 416-6274

Washington, DC 20530-0001 Judith. Vale@ag.ny.gov

(202) 514-2217

SupremeCtBriefs@usdoj.gov

Benjamin.Snyder@usdoj.gov \
ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 9th day of December 2020.

 
 
    

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
